No. _______
IN THE

Supreme Court of the United States
C ARLOS T ORRES ,
Petitioner,
vs.
U NITED S TATES

OF

A MERICA ,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Jon M. Sands
Federal Public Defender
District of Arizona
Jeremy Ryan Moore
Assistant Federal Public Defender
Counsel of Record
407 W. Congress Street, Suite 501
Tucson, Arizona 85701
ryan_moore@fd.org
(520) 879-7500
Counsel for Petitioner

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Carlos Torres, by and through his court-appointed counsel,
Jeremy Ryan Moore, Assistant Federal Public Defender, respectfully requests this
Honorable Court for leave to proceed in forma pauperis in applying for a writ of
certiorari. As grounds therefore, and pursuant to Supreme Court Rule 39.1,
Petitioner states that undersigned counsel was appointed pursuant to the Criminal
Justice Act and proceeded under that appointment in the United States Court of
Appeals for the Ninth Circuit, all pursuant to 18 U.S.C. ยง 3006A(b), (c), (g)(2)(A),
and that Petitioner is unable to retain counsel and pay for costs attendant to the
proceedings before this Honorable Court.
WHEREFORE, the Petitioner respectfully requests through counsel that he
be granted leave to proceed in forma pauperis.
RESPECTFULLY SUBMITTED this 9th day of March, 2021.
JON M. SANDS
Federal Public Defender
District of Arizona
s/ Jeremy Ryan Moore
JEREMY RYAN MOORE
Assistant Federal Public Defender
407 W. Congress Street, Suite 501
Tucson, Arizona 85701
Telephone: (520) 879-7500
Facsimile: (520) 879-7600
Counsel of Record for Petitioner

